<html>
<title> - SUPPORTING THE DEMOCRATIC AND EUROPEAN ASPIRATIONS OF THE PEOPLE OF UKRAINE, AND THEIR RIGHT TO CHOOSE THEIR OWN FUTURE FREE OF INTIMIDATION AND FEAR; AND THE UNITED STATES-ISRAEL STRATEGIC PARTNERSHIP ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  SUPPORTING THE DEMOCRATIC AND EUROPEAN ASPIRATIONS OF THE PEOPLE OF 
      UKRAINE, AND THEIR RIGHT TO CHOOSE THEIR OWN FUTURE FREE OF 
     INTIMIDATION AND FEAR; AND THE UNITED STATES-ISRAEL STRATEGIC 
                        PARTNERSHIP ACT OF 2013 

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                        H. Res. 447 and H.R. 938

                               __________

                            JANUARY 29, 2014

                               __________

                           Serial No. 113-105

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-467 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 447, Supporting the democratic and European aspirations 
  of the people of Ukraine, and their right to choose their own 
  future free of intimidation and fear...........................     2
  An amendment in the nature of a substitute to H. Res. 447 
    offered by the Honorable Eliot L. Engel, a Representative in 
    Congress from the State of New York..........................     7
  An amendment to the amendment in the nature of a substitute to 
    H. Res. 447 offered by the Honorable Eliot L. Engel..........    18
H.R. 938, United States-Israel Strategic Partnership Act of 2013.    26
  An amendment in the nature of a substitute to H.R. 938 offered 
    by the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Floria, and the Honorable Theodore 
    E. Deutch, a Representative in Congress from the State of 
    Florida......................................................    35
  An amendment to H.R. 938 offered by the Honorable Christopher 
    H. Smith, a Representative in Congress from the State of New 
    Jersey.......................................................    49

                                APPENDIX

Markup notice....................................................    54
Markup minutes...................................................    55
Markup summary...................................................    57
The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Prepared statement........................    58
The Honorable Tom Cotton, a Representative in Congress from the 
  State of Arkansas: Prepared statement..........................    59
The Honorable Lois Frankel, a Representative in Congress from the 
  State of Florida: Prepared statement...........................    60
The Honorable Doug Collins, a Representative in Congress from the 
  State of Georgia: Prepared statement...........................    61
  SUPPORTING THE DEMOCRATIC AND EUROPEAN ASPIRATIONS OF THE PEOPLE OF 
      UKRAINE, AND THEIR RIGHT TO CHOOSE THEIR OWN FUTURE FREE OF 
     INTIMIDATION AND FEAR; AND THE UNITED STATES-ISRAEL STRATEGIC 
                        PARTNERSHIP ACT OF 2013

                              ----------                              


                      WEDNESDAY, JANUARY 29, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:41 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This meeting will come to order. We will 
ask all members to take their seats.
    And pursuant to notice, we meet today to mark up two 
strongly bipartisan measures. Without objection, all members 
may have 5 days to submit statements for the record and also to 
submit any extraneous materials on any of today's business. And 
I am going to remind members that we will soon face votes on 
the floor.
    We now call up House Resolution 447, the ranking member's 
Ukraine resolution. The clerk will report the title of the 
bill.
    Ms. Marter. H. Res. 447, Supporting the democratic and 
European aspirations of the people of Ukraine, and their right 
to choose their own future free of intimidation and fear.
    ``Whereas a democratic, prosperous, and independent Ukraine 
is in the national interest of the United States;
    ``Whereas closer relations with the European Union through 
the signing of an Association Agreement will promote democratic 
values''----
    Chairman Royce. Without objection, the measure is 
considered read.
    The Engel amendment in the nature of a substitute that was 
provided to your offices Monday morning is considered base text 
for the purposes of the markup.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Chairman Royce. It is open for amendment at any point, and 
after my brief remarks, I am going to recognize the ranking 
member and then any other member seeking recognition to speak 
on this resolution.
    Ukraine is a country of quite strategic significance for us 
in the United States. Its stability, its continued economic 
development are very important to our national interests. The 
Ukrainian people's determination to ensure basic human rights 
and freedom for themselves and their country has been 
inspiring. It is a country with a long tortured history.
    The determination that we have seen there is being 
demonstrated by the hundreds of thousands of Ukrainian citizens 
who have peacefully taken to the streets in defense of their 
rights. This protest movement began with the decision by 
President Yanukovych not to deepen economic engagement with the 
European Union, but it has since become a struggle between 
those who want a democratic future based on the rule of law for 
Ukraine and those who are prepared to use violence to turn back 
the clock. And in this particular resolution, we call upon all 
factions to ratchet down the use of any violence.
    Events are changing by the hour, at times threatening a 
dissent into chaos and at others offering the possibility of a 
peaceful resolution to the crisis. This resolution comes at a 
decisive moment in that contest.
    I commend the ranking member for his efforts to ensure that 
the Congress clearly state our support for a peaceful outcome 
to this crisis. He is an individual who has had a great deal of 
focus since the fall of the Berlin Wall, frankly, on the 
Ukraine, and knows from personal experience the costs of the 
tortured history of the Ukraine. His own grandmother 
disappeared there during those turbulent times, and many, many 
Americans now turn their focus on what they can do in order to 
try to bring some order out of this chaos so that the hopes and 
aspirations of the people of the Ukraine for democracy can 
truly be realized.
    Mr. Engel.
    Mr. Engel. Mr. Chairman, thank you so much for holding this 
markup today and, as I always like to point out, for working 
with us in a bipartisan manner on both of the measures under 
consideration.
    I strongly support H. Res. 447, a bipartisan resolution I 
authored that supports the democratic and European aspirations 
of the people of Ukraine and their right to choose their own 
future.
    As a longstanding advocate of a democratic, prosperous, and 
independent Ukraine, I was very disappointed by the Ukrainian 
Government's decision last November to reject an offer from the 
European Union for closer economic and political ties. This 
decision derailed years of hard work as well as the prospects 
for long-term economic growth and stronger democratic 
institutions that would result from enhanced relations with the 
European Union. More immediately, it sparked massive 
demonstrations in Kyiv and throughout the country. Hundreds of 
thousands of Ukrainians have come out in the streets to show 
their support not only for closer relations with Europe but 
also more fundamentally for democracy, more accountable 
government, human rights and basic human dignity.
    The fact that the protests have been overwhelmingly 
peaceful makes them all the more impressive. Unfortunately, 
there have been exceptions, including police violence on 
several occasions in November and December, the beatings and 
abductions of journalists and civil society activists, and the 
most recent and tragic violence following the January 16th 
passage of antidemocratic laws by Ukraine's Parliament. I 
strongly condemn all acts of violence. It is imperative that 
all sides exercise restraint and avoid confrontation.
    My sympathies are certainly with the demonstrators, but I 
think we have to monitor the situation carefully because 
allegations of anti-Semitic acts and plays coming from some of 
the demonstrators is very disturbing, and of course, we will 
not stand for that. Individuals must behave responsibly, and 
the authorities in particular must respect and uphold the 
democratic rights of all citizens. And those who authorize or 
engage in violence should be held personally accountable for 
their actions, including by targeted sanctions, if appropriate. 
That is why I welcome the recent actions by the Department of 
State to revoke the visas of several individuals linked to the 
violence. Following the dramatic increase in tensions this 
month, the most recent developments in Ukraine give some cause 
for hope. I welcome the repeal of most of the antidemocratic 
measures and the fact that meaningful talks appear to have 
begun between the government and opposition leaders, but the 
situation in Ukraine remains very volatile and more needs to be 
done.
    I have a particular interest in Ukraine since my four 
grandparents were born there. They left for America 100 years 
ago and more, and again, I think that a number of us are very 
concerned with some of the anti-Semitic rants we have heard 
from some of the demonstrators who otherwise seem to be well-
intentioned.
    I commend the efforts of the administration and our 
European partners to de-escalate tensions and believe that we 
must remain engaged, and once again, at this critical moment of 
Ukraine's history I urge all parties to continue the 
substantive and sustained dialogue that is essential to resolve 
the crisis and address the desire of millions of Ukrainian 
citizens for a democratic European future.
    Thank you, Mr. Chairman.
    Chairman Royce. We thank the ranking member not only for 
his long engagement and leadership on this issue, but also this 
legislation.
    Do any other members seek recognition? Mr. Smith?
    Mr. Smith. Mr. Chairman, thank you very much, and I wanted 
to thank you for again bringing up in a very bipartisan way 
resolutions that reflect very deeply held convictions on the 
part of Members of both sides of the aisle.
    I want to thank Mr. Engel, the ranking member, for 
sponsoring this. I think it really raises an issue at an 
extremely important time. I was in the Ukraine last year. I was 
in Kyiv. There are areas where we have had cooperation with the 
Yanukovych government, especially with his Foreign Minister, 
who was the chair at office for the OSCE (the Organization for 
Security Cooperation in Europe). I was actually there on an 
anti-human-trafficking effort, and it was like I said, 
tremendous cooperation, but on the whole list of human rights 
concerns, the Yanukovych government has fallen far short, and 
the people who are demonstrating, as you pointed out so 
correctly, Mr. Chairman, on the Maidan, this isn't just about 
European integration or taking steps in that direction. It is 
far larger. Basic fundamental human rights need to be 
respected, freedom of the press. We still have a number of 
outstanding political prisoners that need to be released, so I 
think, again, this raises the issue at a very timely time that 
we stand in solidarity with the people who are on the streets, 
and I want to especially note and underscore with emphasis how 
strong the church is and the churches and the other parts of 
the faith community in saying no violence. They have literally, 
many of the bishops, the metropolitans and others, stood right 
in the crosshairs of what could have been a very violent 
situation to admonish the leadership and the guys with the guns 
not to shoot. So that shows tremendous courage. Wonderful 
resolution.
    Chairman Royce. Thank you, Mr. Smith.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Engel for your leadership and for the 
bipartisan manner in which we are marking up these bills today. 
In particular, I would like to thank the committee for this 
vote on House Resolution 447, Supporting the democratic and 
European aspirations of the people of Ukraine and the right to 
choose their own future free of intimidation and fear.
    The resolution stresses the importance of the adoption of 
democratic social norms in Ukraine and in the region and 
supports the democratic aspirations of the people of the 
Ukraine. Over the past several years, we have seen some 
impressive improvements in human rights. However, the situation 
for lesbian, gay, bisexual, and transgender individuals 
continues to be a cause for concern. The rampant and 
unacceptable state-sponsored homophobia we are witnessing in 
neighboring Russia is slowly invading Ukraine as well. Russian 
President Putin's allies in Kyiv have sought to introduce 
similar legislation in the Ukrainian Rada to ban so-called 
homosexual propaganda, which does nothing more than limit the 
fundamental freedoms of association, speech, and assembly for 
all Ukrainians, regardless of sexual orientation or gender 
identity.
    Ukrainian authorities have a clear choice to make. They can 
move closer to the European Union, toward openness, prosperity, 
and the rule of law or they can return to the old days when the 
only rule that mattered was the rule from Moscow. I commend the 
committee for bringing this important resolution forward. The 
citizens of Ukraine, including her LGBT citizens, deserve much, 
much better, and they should know we stand with them. I again 
thank you, Chairman and Ranking Member, for moving this 
important piece of legislation forward. I look forward to its 
passage.
    I yield back.
    Chairman Royce. Mr. Rohrabacher.
    Mr. Rohrabacher. Well, I hate to be the only one opposing 
this, but I think that honesty requires us sometimes to step 
forward and say that certain things aren't true that everybody 
seems to accept.
    We are talking about the rule of law. Who won the last 
election in Ukraine? The people who won the last election in 
Ukraine are the ones who should be making policy in Ukraine. 
Our resolution here suggests that the people are very upset 
because their President abruptly suspended negotiations when 
talking about joining the EU or going in that direction.
    How do we know what demands were made on that President? 
Are we backing up some big European banking system that made 
some demand on the Ukraine? Is that what we are doing? We don't 
even know why they abruptly ended that negotiation, and all we 
know is that that government was elected by the people of the 
Ukraine, and now we are siding with people who want to 
superimpose their positions on Ukraine.
    If they don't like the policies of this government, they 
should elect another government the next time they get a chance 
and reverse the policy, and instead they have been in the 
streets trying to use brute force, and who says that the 
government was the first one to use violence in this? We don't 
know that. I have been watching this situation as closely as 
anybody. And for all we know, the demonstrators, there were 
people in the demonstrations, and Eliot has already mentioned 
that there are some rogue elements in this whole confrontation. 
On the side of the demonstrators, there are pretty unsavory 
people, just as we know in the government they have got a bunch 
of unsavory people there as well.
    The question is, should the United States Government be 
telling them that joining the EU is what is good for them, no 
matter what demands the EU is making on Ukraine? Let's quit 
trying to tell these people what to do. You want the rule of 
law? Let's talk about the rule of law. I mean, how can we pass 
a thing on the rule of law when the rule of law has that 
elected government making the decision, and we are trying to 
tell them not to let the elected government make the decision; 
let demonstrators in the street do it instead.
    Now, if we were calling on the Government of Ukraine to 
have a referendum on the EU, I would be supporting that 
resolution. That, indeed, would be a democratic solution to 
that, and whoever is opposing it, I would think they are making 
the wrong decision in Ukraine, but let's be for the rule of 
law. Let's not try to superimpose our vision, yeah, Ukraine 
should be more aligned with the EU than with some Russian 
economic federation. Let's--we can't superimpose our values 
like that, our decisions on them. If we do, we are 
contradicting our own basic concept of the rule of law and the 
democratic process.
    We need to do a lot of thinking about this resolution, and 
I am sorry to have to put this in everybody's face because I 
can see everybody wants to do this, this is the popular thing, 
this is what makes you look, look, I am so concerned about 
freedom when, in fact, the substance of what we are doing is 
against the rule of law and against permitting the people of 
Ukraine to make their decisions through the democratic process. 
And we should condemn violence on both sides, which I imagine 
this does. I will be opposing this resolution.
    Chairman Royce. If I could respond as chairman because the 
gentleman from California has raised some points that, indeed, 
you have a duly elected government in the Ukraine, but at the 
same time, one of the questions before us is if a government 
does not go through regular order but, instead, suspends the 
rights or the liberties of people through a process whereby 
that government takes the executive branch and utilizes the 
executive branch for what should have gone through the 
Parliament in order to strip citizens, from their perspective, 
of their basic rights--in other words, if you have 
antidemocratic measures that are put in place by executive fiat 
or by promulgation only from the Presidency and they are not 
ratified by the Parliament, you can see why this becomes a more 
confusing issue, and that is why I think at the end of the day, 
the fact that the resolution calls for restraint on all 
factions, basically the thrust of the resolution is to try to 
get back toward leverage for a resolution based upon 
nonviolence, based upon consultation, based upon not going out 
into the streets, either the military or the protesters in 
order to get back to some semblance of an environment in which 
perhaps the Parliament can again begin to make the decisions 
and do it in a democratically inclined way is to set a 
framework here, and this is what Mr. Engel, I believe, is 
trying to do, a framework whereby we can have reason prevail. 
So from that standpoint and especially since the powers of the 
Parliament have been usurped arguably by the executive branch 
with these antidemocratic measures, I think it is appropriate 
for the House to urge a potential solution here.
    Any other members seek recognition?
    Mr. Keating. Mr. Chairman.
    Chairman Royce. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to thank you and Ranking Member 
Engel for working together with myself and other people on this 
bipartisan resolution. Further, I would like to thank the 
members of the European Subcommittee that have signed on, which 
include each minority member of that subcommittee. As ranking 
member of the Subcommittee on Europe, Eurasia, and Emerging 
Threats, I believe that it is indeed essential for the United 
States to show our strong support for the democratic 
aspirations of the Ukrainian people. Many of us have been 
deeply troubled by the developments in Ukraine in the wake of 
President Yanukovych's decision not to sign an association 
agreement with the European Union and the resulting activities 
that followed.
    We have been troubled, but we have also been inspired by 
the thousands of nonviolent protesters and journalists who have 
taken to the streets, despite subzero temperatures and bitter 
wind chill to peacefully demonstrate and demand in a more 
democratic way for an open society.
    We have been disappointed in the Ukrainian Government's 
repeated refusal to engage in substantive dialogue with these 
protesters, and we have been deeply dismayed at reports of 
violence, especially the deaths, beatings, and disappearances, 
illegal arrests, and hospitalization of peaceful protesters, 
social activists, and journalists. I applaud the 
administration's decision to revoke the U.S. visas of the 
Ukrainian Government officials who were responsible for 
ordering or committing acts of violence against peaceful 
protesters. I believe additional sanctions should be 
considered, especially in the event of further violence.
    On Tuesday, Ukraine's Parliament voted to repeal five of 
the repressive measures enacted on January 16th, and this is an 
important first step. Another hopeful sign was the resignation 
of the Prime Minister and his cabinet. This creates an opening 
for serious dialogue between the government and the opposition.
    Quite appropriately, this resolution urges all parties to 
refrain from violence, all parties, and to engage in 
constructive, sustained dialogue in order to find a peaceful 
solution to the current crisis. To facilitate that process, 
this resolution underscores to protesters, to the government, 
and to all Ukrainians that the United States will continue to 
defend Ukraine's sovereign right to chart its own course and 
build its own future. It also makes clear not just to the 
protesters, but to President Yanukovych as well, that the 
United States will continue to support the Ukrainian people's 
aspirations to build a strong and prosperous democracy, one 
that is firmly rooted in Europe.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Given our time constraints, I am going to 
go ahead and ask unanimous consent that the brief Engel 
amendment No. 84 sent around to all offices yesterday updating 
the text to reflect events in the last couple of days be 
considered en bloc with the base text.
    Without objection, so ordered.
    [The amendment follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Smith. Mr. Chairman?
    Chairman Royce. Yes?
    Mr. Smith. Might I ask a question of the bill sponsor?
    Chairman Royce. Absolutely.
    Mr. Smith. Thank you.
    And I would ask Mr. Engel, you know, we don't define any 
country or government as to how we look at their work on 
democracy or human rights as to who they associate with, in 
this case the European Union. In reading your ``be it resolved 
clauses'' and that the House should do this, the House should 
do that, I don't see anything in this that says they should 
join the European Union; is that correct?
    Mr. Engel. I believe that is correct.
    Mr. Smith. So you would leave it exclusively up to the 
Ukrainian people to decide when and if, if ever, they would 
like to become part of the European Union?
    Mr. Engel. Yes.
    Mr. Smith. Okay. So this focuses on the human rights abuses 
and the violence that has taken the lives of several people and 
our concern for their lives and that the aspiration of the 
Ukrainian people be properly respected?
    Mr. Engel. Absolutely.
    Mr. Smith. Thank you.
    Mr. Engel. Thank you.
    Chairman Royce. Without----
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Royce. Yes, the gentleman is recognized.
    Mr. Rohrabacher. I would like to ask Mr. Engel some 
questions as well.
    Chairman Royce. The gentleman from California is 
recognized.
    Mr. Rohrabacher. Mr. Engel, doesn't this resolution say, 
``Whereas the Government of Ukraine has declared integration 
with Europe a national priority and has made significant 
progress toward meeting the requirement of that association 
agreement,'' isn't that basically a ``whereas'' saying that is 
what we believe they should do? And ``Whereas, on November 21, 
2013, following several months of intense outside pressure, the 
President of Ukraine abruptly suspended negotiations on the 
association agreement 1 week before it was due to be signed at 
the EU's Eastern Partnership Summit in Lithuania.'' Isn't that 
our suggestion, then, this President, who was elected to 
represent his people, and we have no idea what demands are 
being made of him to become part of the EU, aren't we then here 
condemning him for suspending those negotiations when we don't 
even know what demands were being made on his country?
    Mr. Engel. Well, first of all, Mr. Rohrabacher, the 
``whereas'' clauses just simply state the facts, and the facts 
as we know them is that there were negotiations going on with 
the European Union and also lots of pressure from Russia to not 
join with the European Union but instead to join a Russian 
customs union. And it has been obvious to anyone who has 
watched the situation that that was a very unpopular move with 
the people of Ukraine. That is why you have these spontaneous 
demonstrations. So the ``whereas'' clauses were just simply 
laying out the facts as we see them.
    Mr. Rohrabacher. Well, Mr. Engel, it is hard for me to 
suggest that we know exactly what the view of the majority of 
the people of Ukraine is by the number of demonstrators that 
certain groups can put in the streets. Now, by the way, several 
years ago, I was out in the streets in Ukraine camping out with 
protesters, and but basically, they were calling for a new 
election, et cetera, and I thought that was justified.
    We are not even asking people here to call for a referendum 
on this issue. We are just basically saying that the Government 
of Ukraine doesn't have the right--or at least we are 
condemning them for making a decision that we disagree with 
them on.
    Mr. Engel. Well, I----
    Mr. Rohrabacher. This is--you know, this is a slippery 
slope here, folks.
    Mr. Engel. Well, I do think that----
    Mr. Rohrabacher. We are talking rule of law. Rule of law 
means the guy who wins the election makes the decisions.
    Mr. Engel. Well, I think that any objective observation of 
what has been happening in Ukraine seems clear to me that this 
government is going against the will of the people. We saw that 
happen in Egypt, and we were able to make some conclusions, 
even though in Egypt, you had the Muslim Brotherhood duly 
elected. I mean, most of us didn't like that government, but it 
was duly elected, but it became clear that it no longer seemed 
to represent the wishes of the people. I think it is a similar 
situation here in Ukraine. That would be my opinion. I 
understand we have a disagreement, and I respect your view, but 
I think it is pretty clear that the people of Ukraine are fed 
up with the decisions that were made by the current leaderin 
Ukraine.
    Mr. Rohrabacher. And Mr. Engel, immediately after Mr. Morsi 
was removed from a government in Egypt, the people involved in 
that immediately put in process a road map for elections, and 
they did so. So, basically, we were talking about leading up to 
elections, and frankly, I don't see that this is being aimed at 
the democratic process. I see what we are doing here as being 
something aimed at forcing a country to join the European 
Union. And we have no idea what demands are being made of them 
to be part of that union.
    Mr. Engel. Well, let me just say that I think that the 
demonstrators in the streets of Kyiv are asking the President 
to resign so that new elections can be held. I think that is 
their goal, and I, for one, certainly am sympathetic to that 
goal.
    Chairman Royce. Hearing no further amendments----
    Mr. Grayson. Mr. Chairman?
    Chairman Royce. Mr. Grayson?
    Mr. Grayson. Listening to the debate that has been going 
on, I am wondering how the propounders of this measure would 
feel about deleting the second ``whereas'' clause, the 12th 
``whereas'' clause, and the 13th ``whereas'' clause, leaving 
the rest of the bill intact. I will read the three clauses. The 
first one reads, ``Whereas closer relations with the European 
Union through the signing of an association agreement would 
promote democratic values, good governance, and economic 
opportunity in Ukraine.'' The 12th ``whereas'' clause, which is 
at the bottom of page 2, says, ``Whereas on January 16, 2014, 
the Ukrainian Parliament passed and President Yanukovych signed 
legislation which severely limits the right of peaceful 
protest, constrains the freedom of speech and independent media 
and unduly restricts civil society organizations.'' And the 
third ``whereas'' clause reads, ``Whereas the passage of these 
undemocratic measures and President Yanukovych's refusal to 
engage in substantive dialogue with opposition leaders 
precipitated several days of violence and resulted in several 
deaths and hundreds of injuries as well as numerous allegations 
of police brutality.''
    I think that deleting these three ``whereas'' clauses 
avoids the implication that we are somehow suggesting or 
implying that the Ukraine needs to join the EU, whether or not 
it does so voluntarily, and also avoids the implication that we 
believe that the actions taken through color of law in the 
Ukraine are somehow undemocratic. Thank you.
    Mr. Engel. Well, let me, if I might, Mr. Grayson. I 
certainly, you know, respect your counsel in going through the 
resolution, but I think, at this time, I really would not feel 
comfortable with eliminating certain clauses. I can speak for 
myself. I think that, personally, obviously, it is up to the 
Ukrainian people, but I happen to believe, as the demonstrators 
do, that the country would be far better off working out a 
partnership with the European Union than with the Russian 
customs union.
    Obviously, we as Americans don't have the right to make 
that decision, but I certainly think that it is not off base or 
out of line to express our feelings in that regard. Russia has 
been putting lots of pressure on a number of countries in the 
region, not only Ukraine but Moldova, Georgia, and some of the 
other countries to try to blackmail them or bully them into 
joining the Russian customs union rather than the EU 
partnership, and I think that the majority of people on this 
committee and in the Congress think or would like to see these 
countries have the opportunity to join the EU. So I just worry 
about starting at this late date as we are marking this up to 
pull out various paragraphs would be detrimental, so I 
certainly respect what you have tried to do, but I really think 
that I would decline to chop this up at this date.
    Chairman Royce. Ms. Frankel wanted recognition.
    Ms. Frankel. Thank you, Mr. Chair.
    I have a question of the sponsor. I have enjoyed this 
debate. What is the potential impact of this resolution?
    Mr. Engel. Well, like so many other resolutions like this, 
it is essentially a sense of Congress talking about how we 
feel. I would think that if word got back to the demonstrators 
in Ukraine that the U.S. Congress had passed such a resolution, 
it would give a boost to them in their efforts psychologically, 
if nothing else, and I don't think there is anything wrong with 
the Congress stating how we feel about democratic aspirations 
of people.
    You know, the United States, the European Union are allies, 
and I think they share common values with us, democratic common 
values, and I don't think it is wrong of us to express that we 
are sympathetic to those democratic common values.
    Chairman Royce. Mr. Sherman?
    Mr. Sherman. I share Mr. Rohrabacher's concern that it is 
not for us to tell the Ukrainians what to do and that just the 
number of demonstrators on the streets may not show where the 
majority opinion lies.
    But in this case, this President of the Ukraine ran on a 
platform that he would join and go forward with the European 
Union. Of course, his opponents ran on a similar platform. This 
is a fundamental decision. This isn't like, you know, changing 
your opinion on a minor matter, and for the President to reject 
the European Union without going back to the people of his 
country seems unfair.
    As to whether there are unreasonable demands being made by 
the Europeans at these negotiations, if so, the President of 
the Ukraine should share that information with his people, and 
so I do think it is appropriate for us to assume that, while 
there is substantial opposition to going forward, that the 
President of the Ukraine should not be rejecting European 
membership and association without going back to his people.
    As to the text of the resolution and Mr. Grayson's 
comments, I think that the second ``whereas'' clause does seem 
to imply that we are telling the people of the Ukraine they 
would be better off with the European Union, but it contains 
the word ``should'' rather than ``would,'' so it says ``signing 
the association agreement should promote democratic values.'' 
Everything we do should support democratic values and promote 
democratic values, but I do think the resolution would be 
improved by removing that ``whereas'' clause so that we can say 
we are in favor of a democratic decision. Ordinarily democracy 
takes place through just electing a President and a Parliament, 
but when you elect a President and a Parliament on a platform 
to do this, and they decide to do that, then it is time to go 
back to the people----
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Sherman. And as to the other two ``whereas''--I will 
yield in a second. Whereas the other clauses that Mr. Grayson 
objects to, I would not join him in that concern because it is 
simply true that this government in Kyiv has adopted, through 
parliamentary means, restrictions on peaceful protest that 
clash with the democratic values, and throughout the world, we 
oppose antidemocratic, anti-free-speech provisions, even if 
adopted by a duly elected Parliament. So I think it is up to 
the author to decide whether to perhaps satisfy some of us and 
eliminate that second ``whereas'' clause. I think as long as it 
has the word ``should'' in it, it is not as objectionable as it 
would if it had the word ``would'' promote democratic values.
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Mr. Sherman. And I yield to the gentleman from California.
    Mr. Rohrabacher. Wouldn't you say that if we were really 
suggesting that the democratic process be followed that we 
should--that instead, the people of Ukraine should unelect this 
government and elect a government that does follow through on 
its commitments, and are we calling for--if we are calling for 
a referendum here or something like that, I think I would be 
less hesitant because we really don't know about these type of 
negotiations that go on between--Margaret Thatcher was 
attacked, by the way, let me be very clear: There were riots, 
and there were major demonstrations against Margaret Thatcher 
for not wanting to go into the EU. And I am sorry, she was 
elected at that time, and she--of course, she lost her 
position, but it was good that--anyway----
    Mr. Sherman. Just to reclaim my time. I don't think the 
resolution has the specificity of saying what mechanism the 
Ukrainian people should use to make their views known on this 
important issue, whether that is new elections for a new Chief 
Executive or whether that is a referendum, either would take 
the same approach, which is allowing the people of the Ukraine 
to make this important decision. The resolution doesn't deal 
with that, and so maybe some steps could be----
    Mr. Rohrabacher. That might be a better resolution. Thank 
you.
    Mr. Sherman. I yield back.
    Chairman Royce. Mr. Engel.
    Mr. Engel. Yes, I want to ask Mr. Grayson, was that one of 
the paragraphs that you had suggested we remove? That 
``whereas,'' the second ``whereas''?
    Mr. Grayson. Yes. Also, it might accommodate Mr. 
Rohrabacher's concern if you simply changed ``should'' to 
``might'' or ``may.''
    Mr. Sherman. I would just take it out.
    Mr. Engel. Mr. Chairman, since there seems to be some 
concern with that paragraph, let me make an amendment to remove 
it. Ask unanimous consent to remove that paragraph.
    Chairman Royce. Without objection.
    Mr. Engle. All right. Then might I suggest----
    Yes, the gentleman from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and I know we are 
trying to move this along.
    Chairman Royce. We have one more resolution.
    Mr. Connolly. I know. I just want to say, I think Mr. 
Rohrabacher actually brings up a good point. There is some 
danger when we do things like this that we are the new 
imperium, deciding for others all over the world what our 
version of legitimate democracy is for them.
    I have enormous respect for the ranking member, but he 
cited Egypt as an analogy. We replaced an elected government 
because or, I should say, an elected government was replaced by 
a military junta that has slaughtered people in the streets 
because we think, we think the elected government lost its 
legitimacy. Where will that end if we go down that road, even 
if we don't like the particular government that got elected? 
That is the warning Mr. Rohrabacher is laying in front of us 
beyond the specific wording, and I just, I want to join with 
him in expressing that concern because I think we are all, 
frankly, going to regret the change that occurred in Egypt, 
even though what it replaced was something most of us were 
probably not all that comfortable with. And we need to take 
care, as the House Foreign Affairs Committee and as the 
Congress of the United States, to show a little humility and 
respect for others' sovereignty and others' processes, even if 
they are not always ours.
    And I just wanted to say that, Mr. Chairman, because the 
analogy to Egypt is to me a very troubling one. I thank you.
    Chairman Royce. Would the gentleman yield?
    Mr. Connolly. Of course.
    Chairman Royce. But getting back to the actual ``resolved'' 
clauses, and I would just repeat for the members here the basic 
concept here, ``urges the Government of Ukraine, Ukrainian 
opposition parties, and all protesters to exercise the utmost 
restraint and avoid confrontation and calls on the Government 
of Ukraine to live up to its international obligations to 
respect and uphold the democratic rights of its citizens, 
including the freedom of assembly and expression as well as the 
freedom of the press.'' It condemns all acts of violence. In 
other words, what I don't want to be lost here in the debate is 
the fact that in the body of the ``resolved'' clauses, which is 
the main portion of this document before us, this resolution, 
is the intent to convey exactly that, and I think that is the 
spirit with which the resolution was offered.
    I want to recognize Mr. Keating for a minute.
    Mr. Connolly. Mr. Chairman, if I could just reclaim my time 
before, Mr. Chairman, because I yielded to you. I just want to 
say I agree with you; I support the resolution as amended, but 
the word of caution coming from our friend from California I 
think is worthy of note.
    Thank you.
    Chairman Royce. Right, right.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Just briefly, because we are up against a timeline. Just a 
few weeks ago, this committee unanimously passed, no opposition 
that I am aware of, a resolution concerning the eastern 
partnership that dealt with Ukraine aspirations just like this. 
We are already on record on that. So you are going to have to 
go back and put the genie back in the bottle.
    This committee has already done that. Now this resolution, 
any fair reading of it, the substance is just to say we want a 
dialogue. We are encouraging a dialogue. That is all we are 
doing.
    Chairman Royce. Yes.
    Mr. Keating. And there is nothing more democratic than 
that.
    I yield back.
    Chairman Royce. Well, I think the legislation that is now 
before us is the underlying House Resolution 447, as amended, 
first by the en bloc amendments and secondarily by the 
amendments just offered, suggested, and by unanimous consent 
accepted, removing that one particular clause. So if we might--
--
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Royce. Yes?
    Mr. Rohrabacher. Let me just note that I accept your 
explanation of the resolution condemning all acts of violence, 
not just government on the people but any violence that may 
have occurred by demonstrators trying to force their will 
through that type of violent demonstration. I accept that 
explanation. I accept that we have amended the bill to try to 
at least acknowledge that we are not telling these people that 
joining the EU is what we are insisting on, and I believe that 
that, you have amended it, and we have explained it enough that 
I will be supporting the resolution.
    Chairman Royce. We thank the gentleman from California, and 
the question now occurs on agreeing to House Resolution 447, as 
amended, by the Engel amendment.
    All in favor signify by saying aye.
    All opposed?
    The ayes have it.
    The amendments that are in the underlying bill are agreed 
to, and without objection, the resolution, as amended, is 
ordered favorably reported and will be reported as a single 
amendment in the nature of a substitute. Staff is directed to 
make any technical and conforming changes.
    And I now call up H.R. 938 for consideration. The clerk 
will report the title of the bill.
    Ms. Marter. H.R. 938, To strengthen the strategic alliance 
between the United States and Israel and for other purposes.
    Chairman Royce. Without objection, the measure is 
considered read.
    The Ros-Lehtinen/Deutch amendment in the nature of a 
substitute that was provided to your offices Monday morning is 
considered base text for purposes of markup.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        

    Chairman Royce. It is open for amendment at any point, and 
after brief remarks by myself and the ranking member, I am 
going to recognize the chairman emeritus, and I want to thank 
Ileana Ros-Lehtinen, our chairman emeritus here, and the 
ranking member, Mr. Deutch, as well as Ranking Member Engel for 
their leadership and hard work in authoring this bipartisan 
legislation that I think is quite important.
    Two years ago, the Congress passed the U.S.-Israel Enhanced 
Security Cooperation Act, which provided a clear, concise 
demonstration of support for the U.S.-Israel relationship. The 
legislation before us today builds on that work, and it does so 
by making additions to Israel-based defense stockpiles, by 
authorizing cooperative activities in a range of fields, 
including energy and water, homeland security, agriculture, 
civil space, and provides for a framework to expedite licenses 
for Israel to acquire U.S. goods and services critical to the 
defense.
    The bill also requires more timely assessments regarding 
Israel's qualitative military edge. Today, as Israel is 
surrounded by threats in every direction, this legislation is 
an important symbol of U.S. support. This is a strong 
bipartisan measure. I urge its expeditious consideration by 
this body and passage by this committee.
    And given our time constraints, I am going to go ahead and 
ask unanimous consent that the brief Smith amendment No. 99, 
sent around to all offices last night, the sense of Congress on 
cooperation to combat anti-Semitism, be considered en bloc with 
the base text.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Royce. Mr. Engel, would you like to be recognized?
    Mr. Engel. Yes, thank you. Thank you, Mr. Chairman.
    I strongly support H.R. 938, the Israel Strategic 
Partnership Act. Israel is one of our closest and most reliable 
allies, and this important legislation seeks to further 
strengthen and broaden our mutually beneficial relationship.
    I want to commend Ms. Ros-Lehtinen, the chairman of the 
Middle East and North Africa Subcommittee, Mr. Deutch, the 
ranking member, for authorizing this legislation.
    Israel, as we know, faces a growing array of threats in the 
Middle East and around the world and is the target of vicious 
delegitimatization campaigns by international institutions, 
universities, and others that seek to undermine Israel's right 
to self-defense. And Israel would face an existential threat 
from a nuclear armed Iran, and the legislation before us today 
is critical because it sends a clear and unmistakable message 
to Israel's foes: America stands with Israel.
    So now is the time to reaffirm the importance we place on 
the U.S.-Israel relationship and to pursue new ways to improve 
our partnership at every level. The bill will expand our robust 
defense cooperation, increase U.S.-Israel collaboration on 
cybersecurity, reaffirm our commitment to Israeli missile 
defense programs, which have saved many innocent lives.
    And this legislation also includes the text of H.R. 1992, 
the Israel QME (Qualitative Military Edge Enhancement) Act, 
which passed the House in December. I also, again, in 
conclusion, would like to thank the authors of that important 
bill, Mr. Collins of Georgia, Mr. Schneider of Illinois, for 
their hard work on this issue, so I am very pleased to support 
this and urge our colleagues to support it as well.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    I will remind members, you may put statements into the 
record.
    We are going to go to Ms. Ros-Lehtinen for any statement 
she may wish to make.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
will be brief.
    Thank you for an excellent summary that you and Ranking 
Member Engel gave about the bill. There is a memo that explains 
the bill in your folder. I also had given to members yesterday 
or the day before an explanation about an erroneous campaign of 
misinformation about the bill that said that the bill would 
somehow allow Israel to discriminate against Arab Americans, 
and that is not true, and I hope you had the chance to read 
that memo.
    But thank you, Mr. Chairman, to all of your staff for 
helping us work on this bill, especially I would like to point 
out Matt Zweig, who--I don't know if Matt is here--but worked 
so hard on this bill in its many forms.
    And thank you to Mr. Collins for the qualitative military 
edge section, and it has been a pleasure to work with my 
wonderful colleague, Ted Deutch, and I won't delay it further, 
but there is a good explanation of the bill in your folder.
    Thank you very much, Mr. Chairman, again, for your staff 
and Mr. Engel's staff for working with us.
    I yield back, sir.
    Chairman Royce. Thank you.
    Any other members seek recognition? Mr. Deutch?
    Mr. Deutch. Thank you, Mr. Chairman. I, too, will be brief, 
but I would just like to thank you and Ranking Member Engel for 
holding this markup, for your strong support of this 
legislation. I would like to thank your staffs as well, and it 
is an honor and a pleasure to work with my friend, <greek-l>the 
 deg.Chairman Emeritus Ros-Lehtinen, and I thank her for her 
leadership on this legislation. I would only make one point 
about this, the importance of passing this bill right now, and 
it is that this bill offers a reminder to the international 
community of the depth of the partnership between the United 
States and Israel. Ultimately, at a time when there are very 
few things that everyone in Congress can agree to, we are now 
marking up a bill that has over 350 members of our Congress as 
cosponsors. And at a time when many of our constituents think 
that it is just impossible to agree on anything, this level of 
support really is remarkable. It is precisely because, 
precisely because of this support that the U.S. is able to send 
a message to the rest of the world that our commitment, 
America's commitment to Israel is unshakeable.
    I thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    Mr. Smith, and then Mr. Sherman.
    Mr. Smith. Mr. Chairman, thank you very much.
    I want to thank Chairwoman Ileana Ros-Lehtinen for this 
very fine--and Mr. Deutch, the cosponsor--for this timely and 
very effective piece of legislation. Couldn't come at a better 
time, as was just noted. I just want to say, I have a full 
statement, but very briefly, in 1995, I chaired the first 
hearing on the rising tide of global anti-Semitism when we took 
control of the House and have done more than 18 hearings on 
that since and raised it in numerous, numerous fora, including 
the OSCE. In 2004, I sponsored the amendment that became law 
that created the Office to Monitor and Combat Anti-Semitism 
with a special envoy.
    What the amendment seeks to do is to better understand and 
coordinate with the Israeli Government, particularly the 
Netanyahu special adviser on anti-Semitism, the Ministry of 
Foreign Affairs and the Ministry for the Diaspora, that much of 
the violence on both the micro and the macro level is all about 
the hatred of Jews. That is where the incitement leads to, and 
it whips up people, even moderate Muslims, very often if they 
are not on the same page in hating Jewish people are 
ostracized. I had a hearing last year on it, and Dr. Jasser 
made very telling points about how if you are not going along 
with the anti-Semitic hate, you are then targeted yourself, so 
I think this amendment seeks to say we need to see this in 
security terms, not just in discriminatory terms, and I thank 
the chair for yielding.
    Chairman Royce. Mr. Sherman.
    Mr. Sherman. I would like to join in support with the 
author of the bill of the provisions dealing with making Israel 
a visa waiver country and to say that, of course, that Israel 
does not discriminate against Arab Americans. There has been 
this effort by anti-Israel extremists to accuse Israel of that. 
For example, one case they bring up is that someone they 
questioned at the airport, and it turned out this individual 
had played on an Islamic jihad-sponsored sports team but said, 
well, since I wasn't a real member of Islamic jihad, they 
shouldn't have asked me any questions.
    Israel does have unique security needs, so does the United 
States. We have a no-fly list. They have a no-enter list, and 
those associated with Islamic extremism tend to find their 
names on both lists.
    The provision in this bill simply says that Israel would 
become a visa waiver country when it satisfies all the 
requirements, including nondiscrimination requirements. My hope 
is that in conference, this bill will be amended to help Israel 
achieve the full participation in the visa waiver program.
    Along with Ted Deutch, I introduced the Visa Waiver Act for 
Israel in May 2012. We reintroduced it in January 2013. There 
are now 76 cosponsors. Not everyone on this committee has 
cosponsored the bill, but there is still an opportunity. What 
that bill would do is allow Israel to become a visa waiver 
country, even if in over 3 percent of the cases our counselor 
personnel fear that those who were applying for a tourist visa 
may overstay that visa. The tradition has been to have a 3-
percent rule on that, but the fact is that we have gone up to 8 
percent in giving visa waiver status to virtually every country 
that was between 3 percent and 8 percent. Israel was left out 
of that, but Lithuania, Latvia, Estonia, and Hungary were all 
included. All of them are over 3 percent, under 8 percent, as 
Israel is today. So I hope that we would defend this provision 
from outrageous attacks and strengthen it in conference so that 
it will be as easy for Israelis to visit. When they want to see 
Mickey Mouse, they should see the real one in Disneyland in 
California, close to Mr. Rohrabacher's district, or the newest 
imitation in Florida. Right now, Israel has a visa waiver 
relationship, has a visa waiver relationship with the EU. 
Israelis are free to travel to Europe without getting a visa, 
where they see what we all regard as the complete impostor, the 
Mickey Mouse at Euro Disney. So we need Israelis to bring those 
shekels here. We need to expand person-to-person contacts, and 
I hope that this provision is not only defended but 
strengthened as it goes through the process.
    I commend the author for all of the provisions of the bill. 
I am one of the many cosponsors.
    I yield back.
    Chairman Royce. Are there any other amendments to the base 
text? Hearing no further amendments----
    Mr. Sherman. A point of personal privilege. I commend Ted 
Deutch in every way, but the cosponsor of that visa waiver bill 
is Ted Poe.
    Chairman Royce. Ted Poe.
    Mr. Sherman. Very good.
    Chairman Royce. Well, hearing no further amendments to this 
measure, the question occurs on agreeing to H.R. 938, as 
amended en bloc.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
bill, as amended, is agreed to.
    And without objection, this legislation is ordered 
favorably reported. It will be reported as a single amendment 
in the nature of a substitute. Staff is directed to make any 
technical and conforming changes, and we stand adjourned.
    [Whereupon, at 10:35 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
